No.

-2.

Supreme Court, U.S.
FILED

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
Hector Valentin-PETITiONER

vs.
City of Rochester and Monroe County et al.-RESPONDENTS(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
2nd Circuit Court of Appeals
PETITION FOR WRIT OF CERTIORARI
Hector Valentin
4084 Dewey Avenue
Rochester, New York 14616

(585)-621-8693

QUESTIONS(S) PRESENTED
FIRST QUESTION PRESENTED. Should the Brady Rule versus a self-decided Judicial ethical issue by a
seriously conflicted Federal Judge and involving the same disclosure rule as prosecutors' under Brady,
also apply to a presiding Federal Judge who also suppresses exculpatory and damaging material from a
Pro Se litigant's civil rights lawsuit that has the unconstitutional potential for bias and denied this Pro Se
Petitioner's Constitutional Due Process right to know of this exculpatory information and also his
Constitutional Due Process right to receive a fair Federal Civil Court Proceeding?
SECOND QUESTION PRESENTED. For the public good and in the interest of equal justice, should the
United States Supreme Court now consider setting a new precedent, similar to the Brady Rule, for all
presiding Federal Judges to require them not only ethically but legally, as a matter of written law, to self­
reveal any prejudicially damaging or serious conflict of interest issues that is material to the fairness and
outcome of any Pro Se litigant's Federal Civil Court proceeding?
THIRD QUESTION PRESENTED For the public good and in the interest of equal justice, should the United
States Supreme Court now consider setting a new precedent in order to prevent or deter Brady like
Judicial abuse and to also provide a legal recourse, like Brady, against any presiding Federal Judge who
also suppresses exculpatory evidence that they know or should have known was material to the fairness
and outcome of their civil rights lawsuit as happened to this Pro Se Petitioner in his Section 1983 civil
rights lawsuit, Valentin v City of Rochester and Monroe County et a I, WDNY 2011?
FOURTH QUESTION PRESENTED. Is the Due Process Clause of the U.S. Constitution violated when the
presiding Judge's adverse WDNY Summary Judgment Decision (Docket 157) was Judicially inconsistent
with this Pro Se Petitioner's grant of a 2011 WDNY Habeas Corpus Grant (Valentin v Mazzuca) where the
Habeas Judge also expunged this Pro Se Petitioner's convictions for egregious prosecutorial misconduct
and ruled his NYS trial was a "House of Cards" as opposed to the WDNY Summary Judgment decision
that not only impugned the other Judge's previous Habeas decision but also failed to take into

1

consideration that this Pro Se Petitioner's Due Process civil rights were already ruled by the WDNY to
have been violated?
FIFTH QUESTION PRESENTED. Is the Due Process Clause of the U.S. Constitution violated when a
presiding WDNY Federal Judge fails to inform a Pro Se Plaintiff in a Section 1983 civil rights lawsuit
that he fired his then Victim Witness Assistant for reporting his Brady violation against a defendant he
was prosecuting when he was a former NYS prosecutor and was also was identified as "Subject A" in her
WDNY civil rights lawsuit which also included Brady violations issues from the same office where they
both worked under then District Attorney Howard Relin who was named as a defendants in this Pro Se
Petitioner's Section 1983 civil rights Federal lawsuit?
SIXTH QUESTION PRESENTED. Is the Due Process Clause of the U.S. Constitution violated when a
presiding Federal Judge who was named as the hidden and unnamed "Subject A" in his Victim Witness
Assistant's Federal civil rights lawsuit (Frank v Relin) 2nd Circuit 1993, when this civil rights decision was
included by this Pro Se Petitioner in his Amended Complaint (Docket 139) as a major Monel claim
against his former superior DA Howard Relin on the grounds that he failed to trained his employees on
their Supreme Court mandated Brady obligations?
SEVENTH QUESTION PRESENTED. Is the Due Process Clause of the U.S. Constitution violated when a
presiding Federal Judge who is now made a fact witness to this Pro Se Petitioner's lawsuit when he
informs the presiding WDNY Judge and his Court in an earlier 2014 Docket filing (Docket 67, Exhibit A)
that he intended to call Ms. Frank, his former Victim Witness Assistant, as a future trial witness at his
civil trial and still be able to remain neutral as a Judge when he had an adverse professional relationship
with her and his conflict of interest had a potential and unconstitutional bias against this Pro Se
Petitioner's lawsuit proceeding to trial?
EIGHT QUESTION PRESENTED. Is the Due Process Clause of the U.S. Constitution violated by a presiding
WDNY Federal Judge who fails to reveal his serious conflict of interest problem that he knew or should

2

have known was prejudicial to this Pro Se Petitioner's civil rights lawsuit also invalidate, as a matter of
law, the presiding Judge's adverse decision in his Summary Judgement Decision (Docket 157) as
Judicially tainted and mandate reversal as a matter of the Rule of Law?
NIGHT QUESTION PRESENTED. Is the Due Process Clause of the U.S. Constitution violated when the
presiding Judge's unrevealed and inherent conflict of interest has the unconstitutional potential or
appearance to bias a Pro Se Plaintiffs due process right to receive a fair Federal Civil Court proceeding
that would have allowed his lawsuit to proceed to trial after this Pro Se Petitioner proved smoking gun
police liability evidence against a newly discovered RPD defendant (Investigator Sullivan) but was
arbitrarily denied and made a non-issue by the presiding WDNY Judge and his Court when he refused
this Pro Se Petitioner's request for good cause to add him as a new defendant in his Motion to Amend
Complaint (Docket 138)?
TENTH QUESTION PRESENTED. Is the Due Process Clause of the U.S. Constitution violated when this Pro
Se Petitioner's conflict of interest efforts including a 59 (e) Motion to Alter Judgment (Docket 162) from
his new appeal attorney, John Regan, whom informed this Pro Se Petitioner after the fact that the
presiding WDNY was "Subject A" in Frank v Relin and also requested the recusal of the presiding WDNY
Judge from this Pro Se Petitioner's lawsuit.
ELEVENTH QUESTION. Is the Due Process Clause of the U.S. Constitution violated when this Pro Se
Petitioner written and docket requests that the presiding Judge recuse himself and be turned over to an
independent ethics Judge was denied in a self-decided decision in an unjudicial matter where he took no
responsibility and instead tried to deflect the blame back on this Pro Se Petitioner by making several
written and incendiary statements in Dockets 159,160,161 and 165 with unproven and wild allegations
that this Pro Se Petitioner somehow knew before the fact he was "Subject A" and was now using it as
some kind of ambush tactic or his "Ace in the hole" to overturn his decision.

3

TWELTH QUESTION PRESENTED. Is the Due Process Clause of the U.S. Constitution violated when this
Pro Se Petitioner's conflict of interest efforts were again raised Pro Se in a separate Complaint of
Misconduct (02-19-90038-jm) ethical action with 2nd Circuit Chief Judge Katzmann and again in an En
Banc ethical Petition to their Judicial Council of five unnamed Judges, who like Chief Judge Katzmann,
also declined to answer this Pro Se Petitioner's Due Process ethical contention that he had the right to
know the identity of "Subject A" before the fact and should have been told and gave the presiding
WDNY Judge a pass when he ruled that it was a judicial issue and not an ethical one and threw it out.
THIRTEENTH AND FINAL QUESTION. Is the Due Process Clause of the U.S. Constitution violated by the
ethical question on how can a deciding Federal Judge who fails to inform a Federal Pro Se
litigant that he has a profoundly serious conflict of interest problem that might affect the
outcome of their case to be either a fair or impartial decider of this Pro Se Petitioner's civil
rights lawsuit in the first place.
LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK
HECTOR L. VALENTIN
PLAINTIFF, PRO SE

AMENDED COMPLAINT Docket 139
FILE NO: 11-CV-6238-CJS
Hon. U.S. Magistrate Judge Marian W. Payson
Jury Trial Demanded

V.
CITY OF ROCHESTER, FORMER ROCHESTER POLICE
DEPARTMENT CHIEF OF POLICE ROBERT DUFFY,
ROCHESTER POLICE DEPARTMENT
OFFICERMICHAEL COTSWORTH, INVESTIGATOR
DAVE MACE, INVESTIGATOR JOSEPH MURPHY,
4

INVESTIGATOR PAUL WALTHER, INVESTIGATOR
BLAHO, INVESTIGATOR GARY SULLIVAN, OFFICER
ADORANTE, OFFICER HOLMES, FORMER RPD
OFFICER HOKE
MONROE COUNTY, MONROE COUNTY DISTRICT
ATTORNEY'S OFFICE, FORMER MONROE COUNTY
DISTRICT ATTORNEY HOWARD RELIN,FORMER
MONROE COUNTY DISTRICT ATTORNEY MICHAEL
GREEN, FORMER MONROE COUNTY ASSISTANT
DISTRICT ATTORNEY DANIEL MAJCHRZAK, FORMER
MONROE COUNTY ASSISTANT DISTRICT ATTORNEYS
PATRICK FIERRO, JOHN MUNRO AND JOHN
MARCHIONI, MONROE COUNTY DISTRICT
ATTORNEY'S OFFICE EMPLOYEES MS. WENDY SISCA,
INVESTIGATOR CASPER CACECI AND INVESTIGATOR
J. RODRIQUEZ DEFENDANTS
RELATED CASES
People v Valentin, NYS 330 Hearing 2001. A-l.
People v Valentin, NYS Appeal 2003. A-3.
People v Valentin, NYS 440 Decision 2005.
Valentin v. Mazzuca, WDNY Habeas Grant with expungement of convictions 2011. B-l.
Valentin v City of Rochester and Monroe County et al, WDNY 11CV6238 Section 1983 civil rights lawsuit
2011. B-5.
Valentin v City of Rochester and Monroe County et a I, attorney represented 2nd Circuit Court of Appeals
18-3857-cv 2018.
Valentin v City of Rochester and Monroe County et al, Pro Se Complaint of Misconduct
(02-19-90038-jm) 2019.
TABLE OF AUTHORITIES CITED
Please note that this Pro Se Petitioner is a non-attorney and as a result has only quoted limited
knowledge of case law to support his civil rights lawsuit.
Brady v. Maryland. Quoted in different sections and pages in Amended Complaint (Docket 139) B-5.
Kyles v. Whitley 514, 419 (1995) was referred to in different sections and pages in Amended Complaint
(Docket 139) B-5.
Monel claim against Monroe County. Page 49 to 52 in Amended Complaint (Docket 139) B-5.
Monel claim against City of Rochester. Page 53 to 55 in Amended Complaint (Docket 139) B-5.

5

Tennison v. City and County of San Francisco, 570 F.3d 1078 (9th Cir., 2008). Page 55 to 57 in Amended
Complaint (Docket 139) B-5.
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts.
The opinion of the United States court of appeal appears at Appendix E-6 to
the petition and is
[X] reported at U.S. Court of Appeals 2nd Circuit or,
[ ] has been designated for publication but is not yet reported: or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix B-13 to
the petition and is
[X] reported at WDNY as 11CV6238 PACER; or,
[ ] has been designated for publication but is not yet reported: or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of highest state court to review the merits appears at Appendix A3 to the petition
and is
[X] reported at NYS Supreme Court Fourth Department.
[ ] has been designated for publication but is not yet reported: or,
[ ] is unpublished.
The opinion of NYS Supreme Court Fourth Department court appears at Appendix A3 to the
petition and is
[X] reported at NYS Supreme Court Fourth Department; or,
[ ] has been designated for publication but is not yet reported: or,
[ ] is unpublished.
STATUES AND RULES
42 U.S.C. 1983. Page 5 in Amended Complaint Amended Complaint Docket 139. B-5.
42 U.S.C. 1985. Page 5 in Amended Complaint Amended Complaint Docket 139. B-5.

6

42 U.S.C. 1986. Page 5 in Amended Complaint Amended Complaint Docket 139. B.5,
42 U.S.C. 1988. Page 5 in Amended Complaint Amended Complaint Docket 139. B-5.
Brady v. Maryland. (Docket 139) B-5.

Kyles v. Whitley 514,419 (1995) (Docket 139) B-5.
TABLE OF CONTENTS
QUESTIONS PRESENTED

1.

LIST OF PARTIES.

2.

RELATED CASES

5.

TABLE OF AUTHORITIES CITED...5.
OPINIONS BELOW.

,6.

STATUES AND RULES.

6.

INDEX TO APPENDICES.

7.

JURISDICTION

13.

CONSTITUTIONS AND STATUTORY PROVISIONS INVOLVED...13.
STATEMENT OF THE CASE

13.

REASONS FOR GRANTING THE WRIT.....22.
CONCLUSION

38.
INDEX TO APPENDICES

Listed in chronological order are Appendices (A through F) in this Pro Se Petitioner's Petition to the
United States Supreme Court and documents the Due Process issues that were raised in the NYS State,
the WDNY and the 2nd Circuit Federal Courts of Appeals since 2001 and this Pro Se Petitioner's 20 year
effort to seek equal justice for unconstitutional Due Process violations of his rights under the 5th and 14th
Amendments. In addition, by equal justice this Pro Se Petitioner felt that his right to a fair Federal Civil
Court proceeding were also violated even though he was granted a WDNY Habeas in 2011 that

7

expunged his convictions and had proven smoking gun police liability but his Section 1983 WDNY 2011
civil rights lawsuit was still summarily dismissed. The following Appendices documents six different Due
Process issues that this Pro Se Petitioner respectfully seeks to bring before the United States Supreme
Court for their consideration.
APPENDIX A
New York State Court Actions pertinent to the beginning of this Pro Se Petitioner's Due Process violation
claims that were raised to the NYS trial Judge in 330 and 440 motions for a new trial.
1. NYS People v Valentin 330 motion hearing Court transcript on March 7, 2001 quoting former NYS
Judge Geraci (now WDNY Chief Judge Geraci) about the trial prosecutor's egregious Brady violations and
trial tactics: "There was not a truth seeking mission". Al.
2. NYS People v Valentin 330 motion decision Court transcript on March 27, 2001. History of the Case
and Brady Issues involved. Request for new trial was denied on the grounds that the trial prosecutor was
unaware of the heinous criminal history of his key eyewitness John Kemp. Nine pages. A-2.
3. People v Valentin New York State Supreme Court, Appellate Division, Fourth Judicial Department
decided November 21, 2003 KA 01-01185 ruled there was a Brady violation on Kemp but was harmless
error by the NYS trial prosecutor. A3.
4. Pro Se Petitioner's NYS 440 motion request for a new trial raising two additional Brady violations
against the trial prosecutor and claiming that he hid second trial witness pending criminal charge from
his NYS trial defense attorney. Bower was also arrested and arraigned two days before this Pro Se
Petitioner's sentence on March 27, 2001while his 330 motion was still being decided by then NYS Judge
Geraci. April 27, 2004. A-4.
5. Affidavit of Mr. Richard Rolfe (Advocate) who submitted a supporting Affidavit to this Pro Se
Petitioner's 440 motion reporting that the second trial witness, Sarah Bower, had a previously
undisclosed pending criminal charge against her six days before this Pro Se Petitioner's NYS 2001 trial.
Mr. Rolfe in his Affidavit also severely contradicted her trial testimony and reported his December 2003
phone conversations with her former boss, Mr. Cordello, and former RPD Officer Hoke who wrote her
accusatory instrument. Mr. Cordello and Officer Hoke both gave back negative answers on Sarah
Bower's credibility as a truthful person to Mr. Rolfe. Four pages. A5.
6.440 Decision and Order on February 4, 2005 by former NYS Judge Frank Geraci denying Pro Se
Petitioner's 440 motion for a new trial on the grounds that the trial prosecutor committed no new Brady
violations because Bower had not been arrested or arranged yet before his 2001 NYS trial. NYS Judge
Geraci also impugned Mr. Rolfe's statements of his documented facts in his sworn Affidavit and granted
no evidentiary hearing for witnesses to called. A-6.
7. Pro Se Petitioner's Leave to Appeal was denied with no comment by NYS Justice Kehoe, NYS Supreme
Court on August 2, 2005 ending Pro Se Petitioner's legal recourse in the NYS criminal justice system. Six
pages. A-7 and A-8.

8

APPENDIX B
Pro Se Petitioner's WDNY Federal Court actions pertinent to his Habeas Grant and Section 1983 civil
rights lawsuit (Valentin v the City of Rochester and Monroe County et al, WDNY 2011) that were
raised in a Section 1983 civil rights lawsuit 11CV6238 to the WDNY Federal District Court for the sole
purpose in seeking a grant for a civil trial by jury to prove his Due Process violation claims and the
legal merits of his lawsuit.
1. WDNY District Court Decision and Order granting Petition for Habeas Corpus decided
January 11, 2011 by WDNY Magistrate Judge Victor Bianchini who called this Pro Se Petitioner's NYS
2001 trial a "House of Cards". B-l.
2. WDNY District PACER Docket Court Report (Dockets 1 to 169). B-2.
3. Pro Se Petitioner's first letter request to Magistrate Judge Payson to add Sullivan January 26, 2016
(Docket 137) including her handwritten instructions on letter on how to proceed with permission to
amend Complaint to Court. B-3.
4. Pro Se Petitioner's motion for permission to amend original Complaint (Docket 1) and add
Investigator Sullivan as new defendant (Docket 138) February 29, 2016 (55 pages including nine new
exhibits from discovery). B-4.
5. Pro Se Petitioner's pending Amended Complaint adding Investigator Sullivan as a defendant (Docket
139) February 29, 2016 (112 pages with 28 exhibits including nine new exhibits from discovery). B-5.
6. Magistrate Judge Payson's Order and Motion Scheduling Order (Docket 140) to amend Complaint
March 4, 2016 granting Pro Se Petitioner's request to withdraw his previous pending Amended
Complaint under consideration (Docket 124) and permission to amend Complaint (Docket 138). B-6.
7. Monroe County Law Department's Affidavit in Opposition to Amend Complaint (Docket 141)
March 29, 2016. (Two pages). B-7.
8. City of Rochester Law Department's Memorandum in Opposition to Amend Complaint (Docket 142)
March 30, 2016. (31 pages). B-8.
9. Pro Se Petitioner's 2nd complaint and protest letter to Magistrate Judge Payson requesting again
permission to add Investigator Sullivan to his proposed Amended Complaint. April 3, 2016 and filed April
7, 2016 as (Docket 144). B9.
10. Magistrate Judge Payson's Decision and Order (Docket 146) arbitrarily denying Investigator Sullivan
as time barred despite repeated protests letters and motions from this Pro Se Petitioner requesting that
he be added as a defendant to his lawsuit. September 30, 2016. (23 pages). B10.
11. Judge Siragusa's Further Amended Motion Scheduling Order (Docket 150) April 27, 2017. B-ll.
12. Pro Se Petitioner's protest letter to Magistrate Judge Payson on April 3, 2017 (Docket 149) ending
discovery under protest and raising the issue for the record that the City of Rochester municipal lawyer
engaged in a deliberate obstruction of justice tactics to deny this Pro Se Petitioner Due Process rights

9

under The Federal Rules of Discovery when they played an elaborate game under a false guise to deny
this Pro Se Petitioner of any criminal records on the key eyewitness Kemp which unlawfully hid the
police involvement of Investigator Sullivan and lawsuit defendant Officer Holmes and prejudiced this Pro
Se Plaintiffs civil rights lawsuit. B-12.
13. WDNY Summary Judgment Decision and Order (Docket 157) that there were no open issues in Pro Se
Petitioner's civil rights lawsuit and granting summary judgment to defendants. Decided October 24,
2018. B-13.
14. (Docket 159) Pro Se Petitioner's complaint letter to Judge Siragusa on October 27, 2018 protesting
his Court's unfair treatment of this Pro Se Petitioner's lawsuit after was granted a WDNY Habeas that
already ruled his civil rights were violated. Furthermore, this Po Se Petitioner was also very disconcerted
when he read in the Summary Judgment that RPD Investigator Sullivan was left out of his Amended
Complaint (Docket 139) as a defendant and unfairly eliminating him as an open issue that should have
allowed this Pro Se Plaintiff Section 1983 lawsuit to go to jury trial. B-14.
APPENDIX C
Pro Se Petitioner's WDNY Court actions concerning his conflict of interest and recusal claims against
WDNY Judge Charles Siragusa:
1. Pro Se Petitioner's (Docket 67) with Exhibit A informing WDNY Judge Charles Siragusa, his Court and
the defendant's municipal lawyers that this Pro Se Petitioner intended to call his former Victim Witness
Assistance, Ms. Frank, as a future civil trial witness. At the time, Judge Siragusa identity as "Subject A" in
her civil rights lawsuit Frank v Relin 2nd Circuit 1993 was unknow to this Pro Se Petitioner until after the
fact because Judge Siragusa or his Court failed to notify this Pro Se Petitioner of his serious conflict of
interest. June 5, 2014. C-l.
2. Pro Se Petitioner's first complaint letter on the discovery of the identity of "Subject A" after the fact
to WDNY Judge Siragusa on November 6, 2018 raising a serious conflict of interest on his identity as
"Subject A" in Frank v Relin and questioning him on his ability to be the presiding Judge on this Pro Se
Petitioner's Section 1983 civil rights lawsuit. Filed as (Docket 161-1). November 15, 2018. C-2.
3. Motion to Alter Judgement (Docket 162) November 21, 2018 filed by Pro Se Petitioner's new appeal
attorney (John Regan) also requesting the recusal of Judge Siragusa from lawsuit and raising Inconsistent
Prosecutor's Theory at Plaintiff's 2001 NYS trial. C-3
4. Judge Siragusa's WDNY Court Order (Docket 164) denying Plaintiffs appeal attorney FRCP 59(e)
request (Docket 162) forjudge Siragusa's recusal and his Inconsistent Prosecutor's Theory on the
unsupported grounds that it was not raised in Pro Se Petitioner's Amended Complaint (November 21,
2018). C-4.
5. Pro Se Petitioner's second follow up letter, filed as (Docket 165-1) on December 6, 2018, to his
previous first letter to Judge Siragusa on November 6, 2018 again requesting for him to recuse himself
and refer this Plaintiff's Section 1983 lawsuit to an non conflicted Judge because of his Brady like failure
to inform this Pro Se Plaintiff of his serious ethical conflict as "Subject A" in the Frank v. Relin 2nd Circuit
decision 1993. C-5.

10

6. Judge Siragusa's WDNY Court Order on December IB, 2018 (Docket 165) denying Plaintiffs recusal
letter and refused to answer this Pro Se Plaintiff's assertion that he had a right to know and should have
been told before the fact. In addition, Judge Siragusa tried to deflect the blame back on this Pro Se
Plaintiff and made false and unfounded accusations that this Pro Se Petitioner was trying to set him up
while ignoring the fact that this Pro Se Petitioner didn't know at the time of his conflict of interest with
Ms. Frank. C-6.
7. Pro Se Petitioner's Advocate, Mr. Rolfe, December 21, 2018 personal letter to Judge Siragusa
concerning the "Subject A" ethics matter was ignored and returned to him as not accepted. C-7.
8. Pro Se Petitioner's Advocate, Mr. Rolfe, December 30, 2018 personal letter to WDNY Chief Judge
Geraci (was also the NYS Judge at Pro Se Petitioner's 2001 trial, 330 and 440 hearings and also expunged
his convictions) requesting his intervention as Chief Judge at the WDNY to look into this ethics matter.
Chief Judge Geraci ignored the letter and did not take any action. C-8.
APPENDIX D
Pro Se Petitioner's Docket 92 Question of Law Motion raising two additional Brady violations against
the NYS trial prosecutor' second trial witness, Bower, and the question if her pending criminal charge
was admissible at his NYS trial if it had been revealed to his trial defense.
1. Pro Se Petitioner's Question of Law motion (Docket 92) raised the question to the WDNY Court if the
material trial witness Sarah Bower's pending criminal charge was permissible under the NYS People v
Sorge precedent to prove his previous contentions that an additional two Brady violations claims were
committed by the trial prosecutor at his 2001 NYS trial August 8, 2014 (Note: Docket 92 was answered
by the city and county municipal lawyers, Magistrate Judge Payson ignored it making it a non-issue in
this Pro Se Petitioner's Section 1983 civil rights lawsuit. D-l.
2. City of Rochester's (Docket 98) opposing Pro Se Petitioner's Question of Law (Docket 92) and ignoring
any mention of the NYS People v Sorge but conceding under Richardson that she could have been
questioned on her bad act at this Pro Se Petitioner's 2001 NYS trial if it had been revealed by the trial
prosecutor to his NYS trial defense attorney. D-2.
3. Monroe County's (Docket 99) opposing Pro Se Petitioner's Question of Law (Docket 92) and also
ignoring any mention of the NYS People v Sorge but conceding like the city that under Richardson,
Bower could have been questioned on her bad act at this Pro Se Petitioner's 2001 NYS trial if it had been
revealed by the trial prosecutor to his NYS trial defense attorney. D-3.
4. Pro Se Petitioner's Answer Motion (Docket 100) to city's (Docket 98) and county's (Docket 99)
opposition motions to his (Docket 92) Question of Law Motion. In his Answer Motion, this Pro Se
Petitioner contested their arguments that former NYS Judge Geraci legal reason not to accept this Pro Se
Petitioner 440 claims of a second and third Brady violation against the second trial witness was in error.
In addition, with all due respect to Magistrate Judge Bianchini this Pro Se Petitioner who made the
correct Rule of Law decision when he expunged this Pro Se Petitioner's NYS convictions because of the
egregious prosecutorial misconduct and Due Process violations committed against him at his 2001 NYS
trial, accepted NYS Judge Geraci's 440 reasoning that no Brady violation happened because Bower had
not been arraigned or arrested yet before this Pro Se Petitioner's NYS trial because being a California
based WDNY Magistrate Judge Bianchini was unfamiliar with Richardson Rule of Law that this Pro Se

11

Petitioner used to state his 440 motion claim that it was admissible and later in his Question of Law
Motion (Docket 92) used the People v Sorge ruling as another legal justification why this second and
third Brady Violation on Bower should be allowed in his civil rights lawsuit as a matter of law. Although
the city and county opposed this Pro Se Petition, they did concede it was permissible but the WDNY
basically ignored this important Pro Se Brady claim by not answering it. September 19, 2014. D4.
APPENDIX E
Attorney represented 2nd Circuit appeal to the United States Court of Appeal.
1. General Docket for 2nd Circuit appeal (18-3857). El.
2. Notice of 2nd Circuit Civil Appeal January 4, 2019 (Docket 1). E2.
3. Appeal attorney's brief on 4-10-29 (Docket 26). E-3.

4. Monroe County Opposition Brief to Appeal (Docket 44) April 30, 2019 77 Pages. E-4.
5. City of Rochester Opposition Brief to Appeal (Docket 52) July 17, 2019 34 Pages. E-5.
6. Appeal Attorney’s Docket 59 Reply Brief. July 30, 2019. E-6.
7. U.S. Court of Appeals 2nd Circuit Decision (Docket 66-1) on Valentin v City of Rochester and Monroe
County et al (Docket 1) decided November 7, 2019. E-7.
8. U.S. Court of Appeals 2nd Circuit Decision En Banc Petition (Docket 72) decided November 25, 2019.
E-8.
APPENDIX F
Pro Se Petitioner's 2nd Circuit Complaint of Misconduct against WDNY Judge Siragusa on his conflict of
interest as "Subject A" that were raised in several Pro Se letters to his Court but were denied by Judge
Siragusa in a self-decided decision instead of being referred to a nonconflicted ethics Judge for a
determination on its merits as was requested by this Pro Se Petitioner. After this Pro Se Petitioner's
efforts for equal justice ended in the WDNY, he requested that his conflict of interest Due Process
claims be included in his 2nd Circuit appeal. However, he was advised by his appeal attorney that this
was an ethical issue and non-appealable and did not include it in his second Circuit appeal. Therefore,
this Pro Se Petitioner had no other choice then to again raised the same Due Process ethical conflict of
interest claims to the 2nd Circuit Judicial Ethics Council that he previously raised in the WDNY for a
reconsideration on this Pro Se Petitioner's important Due Process Judicial ethics claims and his
request that his lawsuit be remanded back to the WDNY for a civil trial by jury.
1. Pro Se Petitioner's first Complaint of Misconduct letter on March 25, 2019 to the 2nd Circuit Judicial
Ethics Council on a serious conflict of interest ethics claim against WDNY Judge Siragusa. FI.
2. Pro Se Petitioner's second Complaint of Misconduct letter to the 2nd Circuit regarding the Investigator
Sullivan matter November 8, 2019. F-2.

12

3. 2nd Circuit Chief Judge Katzmann Order on January 9, 2020 denying Pro Se Petitioner's Complaint of
Misconduct against WDNY Judge Siragusa on the grounds it was a Judicial issue and not an ethical one.
In addition, Chief Judge Katzaann failed to answer this Pro Se Petitioner's contention that he had a right
to know of this exculpatory and material information on the identity of "Subject A". Furthermore, this
Pro Se Petitioner also raised his concern that WDNY Judge Siragusa's tried to intimidate him when he
made an unjudicial and unprofessional conspiracy attack on this Pro Se Petitioner's integrity that this
Pro Se Petitioner's felt was used by Judge Siragusa as an unethical tactic to deflect the blame away and
back on this Pro Se Petitioner which only further biased his Due Process right to receive a fair Federal
civil Court proceeding. F-3.
4. Pro Se Petitioner's final En Banc Ethics Complaint Petition to the 2nd Circuit Judicial Council (eight
pages) decided on February 26, 2020. F-4.
5. Pro Se Petitioner's final letter informing Chief Judge Katzmann of his intention to appeal his decision
to the United States Supreme Court on the grounds that this Pro Se Petitioner had the Due Process right
to know of the identity of "Subject A" and should have been told before the fact and nobody involved in
the litigation of his civil rights lawsuit including himself has answered this question March 5, 2020. F-5.
6. Final letter from 2nd Circuit Clerk closing Pro Se Petitioner's Complaint of Misconduct Action May 5,
2020. F-6.
JURISDICTION
[ X ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was January 23, 2020.
[

] No petition for rehearing was timely filed in my case.

[ X] A timely petition for rehearing was denied by the United States Court of Appeals on the following
date:
., and a copy of the order denying rehearing appears at Appendix A-32
[

] An extension of time to file the petition for a writ of certiorari was granted to and
and including
(date) on
(date) in Application No.__ A

The Jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Due Process violations under the Fifth and Fourteenth Amendments of the United States Constitution
and 42 U.S.C. Section 1983.

13

STATEMENT OF THE CASE
1. This PRO Se Petitioner's Statement of his Case in his Pro Se Petition to the United States Supreme
Court, concerns two main Due Process ethical issues that were left unresolved at the WDNY and the 2nd
Circuit Court of Appeals. This unresolved conflict of interest ethics matter against the presiding WDNY
concerns his ethics failure to reveal his identity as "Subject A" in the Frank v Relin Brady violation
scandal and being implicated in a subsequent WDNY civil rights lawsuit that also involved his former
supervisor, then Monroe County DA Howard Relin, when he was employed as a former prosecutor at
the Monroe County District Attorney's Office.
2. Upon discovery of this information and shortly after the fact, this Pro Se Petitioner filed an ethics
complaint against the presiding WDNY Judge requesting his recusal and that his conflict of interest
Judicial claim be referred to another unconflicted Judge. In addition, this Pro Se Petitioner's complaint
on this ethics matter were raised to his Court in several letters of protest and two of these Pro Se
Petitioner letters are attached as part of the Court record in Dockets 160 and 161.
3. Furthermore, this Pro Se Petitioner also stated in his protest letters that he had the Due Process right
to know of the identity of "Subject A" in the Frank v Relin scandal and should have been told before the
fact by the presiding WDNY Judge or his Court.
4. However, the presiding WDNY Judge also unethically self-decided his own ethics complaint against
himself which was fundamentally unfair to the Rule of Law and this Pro Se Petitioner's Due Process
rights when the presiding WDNY Judge denied all his requests for his recusal.
5. Furthermore, in his unjudicial response back in Dockets 160 and 161, he tried to deflect away his
inherent and serious conflict of interest problem, that he caused himself by his own ethics lapse, back
on this Pro Se Petitioner in an unjudicial attack where he made several unfounded, derogatory and
conspiracy like accusations against this Pro Se Petitioner that were completely unsupported by the facts.

14

6. In addition, a final letter of protest was sent to now Chief WDNY Judge Geraci (former NYS trial judge
for Petitioner) requesting his intervention in this matter. However, Chief Judge Geraci never responded
back to this Pro Se Petitioner's conflict of interest ethics complaint against the presiding WDNY Judge
and thereby ended this Pro Se Petitioner's ethics actions at the WDNY under a cloud of controversy and
protest.
7. In 2019 and 2020, this Pro Se Petitioner then raised the same unresolved WDNY Judicial conflict of
interest issues with the 2nd Circuit Judicial Ethics Council in three separate Complaint of Misconduct
letters, that were in a separate Pro Se ethics action that was apart from his attorney represented 2nd
Circuit appeal.
8. Therefore, this Pro Se Petitioner's Judicial conflict of interest complaint letters in late 2018 and 2019
that were raised to the presiding WDNY Judge and the 2nd Circuit Judicial Ethics Council and the resulting
Judicial decisions and its aftermath are the subject for consideration in this Pro Se Petition now before
the United States Supreme Court and presents the constitutional question, if this Pro Se Petitioner
received a fair federal Court proceeding based on the following two unanswered ethics questions:
1. Ethics Contention One. Conflict of interest contention against the presiding WDNY Judge and his role
as "Subject A" and as a former NYS prosecutor in the 2nd Circuit Frank v. Relin scandal at the Monroe
County District Attorney's Office including his professional involvement with his then Victim Witness
Assistant, Ms. Melinda Frank, who he fired for reporting his Brady violation against a defendant he was
prosecuting and the presiding WDNY Judge's conflict of interest involves the following Judicial ethical
and Due Process violations:
a.) The first and main ethical argument that this Pro Se Petitioner raised to the WDNY and the 2nd Circuit
judicial Ethics Council was his contention that this WDNY Pro Se Plaintiff had the Due Process right to
know about the identity of "Subject A" and should have been told before the fact and his argument
that the WDNY presiding Judge failed to honor his ethical duties and obligations and inform this Pro Se

15

Petitioner of his conflict of interest that had the unconstitutional potential to denied him of his due
process right to a fair Federal Court proceeding and his right to request the recusal of the presiding
WDNY Judge.
b.) In addition, this Pro Se Petitioner did not know about his role as "Subject A", before the fact or
before Summary Judgment, because he was not privy to the local Legal System and because he was Pro
Se and an outsider, this Pro Se Petitioner had to be told by his new appeal attorney, John Regan, shortly
after the fact or the Summary Judgment, when he informed this Pro Se Petitioner of the identity of
"Subject A" in his initial appeal consultation for his services. The subject of the Frank v. Relin 2nd Circuit
decision came up as it was included in Section VII of this Pro Se Petitioner's Amended Complaint (Docket
139) as Frank v Relin 1993 U.S. Court of Appeals 2nd Circuit, Page 42 through 49 and was used to support
this Pro Se Petitioner's Monel claim against former defendant DA Howard Relin that he failed to train his
employees on their mandated Brady obligations. Both the NYS trial prosecutor at my 2001 trial and the
presiding WDNY Judge (Subject A) that decided this Pro Se Petitioner's Section 1983 civil rights lawsuit
including another prosecutor identified as "Subject B" were employed by then DA Relin were implicated
in committing Brady violations against their defendants'.
c.) Furthermore, this Pro Se Petitioner notified his Court including, Magistrate Judge Payson, the City
and County Law Departments in 2014 that he intended to call Ms. Frank as a future trial witness (Docket
67, Exhibit A) and this Pro Se Petitioner respectfully contend now made the presiding WDNY Judge a fact
witness to this Pro Se Petitioner's civil rights lawsuit that created a serious conflict of interest on the
grounds that a Judge cannot be a fact witness to a Court proceeding and the presiding Judge at the
same time. This Pro Se Petitioner's contention has never been answered by the presiding WDNY Judge,
2nd Circuit Chief Judge Katzmann and their Judicial Ethics Council in any of their decisions.
2. Ethics Contention Two. Denial of this Pro Se Petitioner's request for good cause in (Docket 138) to
include RPD Investigator Sullivan as a police defendant to his Amended Complaint (Docket 139). On

16

January 26, 2016 and April 13, 2016. this Pro Se Petitioner wrote two letters (B-5 and B-6) to Magistrate
Judge Payson requesting permission to add Investigator Sullivan as a defendant to his proposed
Amended Complaint (Docket 139).

a.) January 26, 2016
Re: Letter to Court Requesting Amending Complaint and Trial Date Guidance
Dear Judge Payson, Presently I have a pending motion (Docket 123) before your Court to
amend my original complaint (Docket 1). My Motion to Amend was filed on March 12,2015,
Since this date new information and facts that were unknown to me at that time has come to my
attention. This new information concerns Investigator Gary Sullivan and his police involvement
with John Kemp in my case and the related Arroyo case and is based on two documents
involving Kemp’s 2000 court transcript and Sullivan’s 2000 RPD arrest/interview report. Both
these documents show that Investigator Sullivan was a member of former ADA Majchrzak’s
police team, a fact that was recently unknown to me. Likewise Investigator Sullivan with the
assistance of Officer Holmes arrested Kemp in 1992 on a sodomy charge and when these three
documents are cross referenced with each other, it can be shown that it was more likely than not
that a conspiracy of silence existed between himself, former ADA Majchrzak and his RPD
Maple Section partners (Officer Holmes, Investigators Mace and Murphy) to suppress
exculpatory information from my defense that was material to the outcome of my trial. As a
result I am respectfully requesting' permission for good cause to submit another amended
complaint that adds Investigator Sullivan as a defendant to my lawsuit with additional exhibits to
support my contentions that he and the other defendants previously named in my lawsuit
displayed a reckless disregard to my Constitutional due process civil rights to a fair trial.
b.) In an April 13, 2016 letter (Docket 144) that was sent to Magistrate Judge Payson, this Pro Se
Petitioner strongly protested his unfair treatment by her Court regarding the Investigator Sullivan
matter and also by the City and County Law Departments unethical tactics that they used in an illegal
effort to prevent Sullivan from being added for good cause as a defendant to this Pro Se Petitioner's
Amended Complaint (Docket 139).
The pertinent excerpted information from this Pro Se Petitioner's April 13, 2016 letter (Docket 144) to
Magistrate Judge Payson was as follows:
Dear Judge Payson,
"As a result of my concerns regarding this matter, I am requesting that my Motion to Amend Complaint be based
on its merits as stated in Docket 138 and not on what the city and county think a Pro Se Complaint should be
versus what the Courts have ruled in previous decisions i.e. Estelle, Corrections Director, et al. v. Gample 29 U.S.
97,97 S. Ct. 285,50 L. Ed. 2d 251 stated: "We now consider whether respondent's complaint states a cognizable
1983 claim. The handwritten prose document is to be liberally construed. As the Court unanimously held in Haines
v. Kerner, 404 U.S. 519 (1972), a pro se complaint, "however in artfully pleaded," must be held to "less stringent
standards than formal pleadings drafted by lawyers" and can only be dismissed for failure to state a claim if it
appears "beyond doubt that the plaintiff can prove no set of facts in support of his claim which would entitle him

17

to relief." Id., at 520 521, quoting Conley v. Gibson, 355 U.S. 41,45 46 (1957)/' "Finally Your Honor I would like to
point out that based on the record, the city has engaged in a blatant obstruction of justice to deny me of any
relevant discovery information that is damaging to their case and are now making time barred claims when they
have caused this problem in the first place and I respectfully contend that I should not be penalized for their
malfeasance. Furthermore, the city has continued their unethical practices to mislead the Court concerning the
involvement of Investigator Sullivan with John Kemp and as a matter of law I respectfully petition your Court for
permission to add him as a defendant to my Amended Complaint".
c.) This Pro Se Petitioner's request for good cause to add Investigator Sullivan to his Amended Complaint
(Docket 139) was denied when WDNY Magistrate Judge Payson Court accepted the City of Rochester
Law Department's objection that it was time barred. She also went to great lengths to justify her denial
in a 23 page Decision and Order (Docket 146) on her legal reasons why she denied this Pro Se
Petitioner's request. In addition, Magistrate Judge Payson also ignored the reasons why this Pro se
Petitioner, using her rules, requested in his Permission to Amend Complaint (Docket 138) his reason, for
good cause, why he wanted to add Investigator Sullivan and gave Magistrate Judge Payson a detailed
explanation on how this liability information on Sullivan was found.
d.) This Pro Se Petitioner also raised a serious obstruction of justice concern with her Court against the
NYS trial prosecutor for hiding evidence when he gave this pro se petitioner's NYS trial attorney through
discovery in 2001, a copy of Kemp's Suppression Hearing Transcript. However, the trial prosecutor's
copy he released in 2001 was missing the first five pages that reported Investigator Sullivan being in
another Courtroom with himself and Kemp.
e.) Inexplicability, the suppression transcript copy that this Pros Se Petitioner obtained through
discovery from the Monroe County District Attorney's Office in 2015 included the missing first five pages
that reported Sullivan's Court involvement with Kemp and the trial prosecutor and was therefore
unbeknownst to this Pro Se Petitioner until he discovered it by happenstance from the Monroe County
Law Department discovery CD. In addition, their discovery CD contained a large number of electronic
files that had to be tediously opened and read. This Pro Se Petitioner's contention regarding how this
happened were ignored like many other valid contentions that he made in his 112 page Amended

18

Complaint (Docket 139) with 28 Exhibits. For additional information, please see Reasons 18 and 19 in the
Section, Reasons for Granting the Petition.
f.) Furthermore, Magistrate Judge Payson did not take into consideration that he was acting Pro Se
without a lawyer when she impugned his motives that he was somehow doing something wrong when
the only thing this Pro Se Petitioner wanted, based on facts and for good cause, was to add Investigator
Sullivan to his Amended Complaint as an open issue. However, Magistrate Judge adverse decision in
(Docket 146) allowed the presiding WDNY Judge in his Summary Judgment Decision (Docket 157) to
make it a non-issue and easily dismissible with no discussion on its merits.
g.) This April 13, 2016 letter (Docket 144) was also briefly mentioned in a one line sentence in the
presiding WDNY Judge's Summary Judgment decision (Docket 157) confirming that this Pro Se Petitioner
did in fact raised an previous objection to Magistrate Judge Payson time barred ruling before her final
Decision in (Docket 146) that this Pro Se Petitioner felt he was being penalized by her for the
intransigence of the defendant's municipal lawyers to honored their discovery obligations. However,
neither the presiding WDNY Judge or his Magistrate Judge gave this Pro Se Petitioner any Rule of the
Law consideration that he was a Pro Se Plaintiff and should be held to a lower standard. Instead,
Magistrate Judge Payson did the opposite and held this Pro Se Petitioner to the same standard as a
lawyer and penalize him unfairly for inadvertent mistakes due to his inexperience with the law.
h.) In addition, as a non-lawyer this Pro Se Petitioner did not understand why his request to add Sullivan
was time barred in the first place since he only recently discovered Sullivan's involvement from a
complete NYS Suppression Hearing transcript on Kemp that the Monroe County District Attorney's
Office supplied to him from their prosecutor's own office file after five years of a very contentious
discovery process with the City of Rochester and the Monroe County Laws Departments that delayed
the release of this smoking gun NYS Court transcript to this Pro Se Petitioner on Kemp's NYS Court
Hearing with Investigator Sullivan who arrested Kemp with his partner (defendant) Officer Holmes on a

19

sodomy charge against a 14 year old female. Furthermore, this Pro Se Petitioner's request to add
Sullivan was his first attempt (Docket 139) because Magistrate Judge Payson did not accept this Pro Se
Petitioner previous attempt to amend because it did not meet her Court Rules and was rendered legally
mute. Therefore, per her Court Rules this Pro Se Petitioner then submitted for good cause a Motion for
Permission to Amend (Docket 138) and gave her detailed and valid reasons why he wanted to add
Investigator Sullivan to his Amended Complaint (Docket 139).
i.) Therefore, for the above forgoing reasons in this second ethics contention to the United States
Supreme Court, it is respectfully contended that the presiding WDNY Judge's denial to add this Pro Se
Petitioner's smoking gun liability evidence against RPD Investigator Gary Sullivan to his amended
complaint (Docket 139) was unfair on the Due Process grounds that it basically eviscerated this Pro Se
Petitioner's lawsuit and strongest police liability claim making it a non-issue and easily dismissible. In
addition, the presiding WDNY Judge's denial to add Sullivan as a police defendant to his Amended
Complaint (Docket 139) when it unfairly allowed the presiding WDNY Judge to state in his Summary
Judgment Decision (Docket 157) that there were no open issues at dispute in this Pro Se Petitioner's civil
rights lawsuit that would prevent summary judgment being granted to the defendants.
j.) As a result of the presiding WDNY Judge's biased Judicial decisions on Sullivan, the unnamed 2nd
Circuit law clerk ruled in his 2nd Circuit decision and also stated that Investigator Sullivan "was not in the
Complaint" thereby making it a non-issue as well with no discussion on why or why not it was not in this
Pro Se Petitioner's Amended Complaint (Docket 139) as a valid Due Process issue although it was listed
by this Pro Se Petitioner's appeal attorney, John Regan, as one of his three 2nd Circuit appeal points.
3. Therefore, in order to seek further Due Process recourse on the two ethics issues at the 2nd Circuit
that were ignored in the WDNY, this Pro Se Petitioner was forced to raise the presiding WDNY Judge's
denial of Investigator Sullivan as an additional ethics issue in his third Complaint of Misconduct letter on
December 29, 2019 with Exhibit A on the grounds that the presiding WDNY Judge's fairness and

20

impartiality to decide his civil lawsuit was fatally compromised by his conflict of interest in the Frank v
Relin scandal and created an unconstitutional potential for bias that affected the presiding WDNY Judge
fairness and impartially to be neutral.
a.) On January 9, 2020, the ethics issue in this Pro Se Petitioner's Complaint of Misconduct (02-1990038) were improperly decided against him by 2nd Circuit Chief Judge Katzmann on the grounds that he
did not answer the serious Judicial ethical issues that this Pro Se Petitioner raised to him in his three
Complaint of Misconduct letters that his most important contention and ethical question that this Pro Se
Petitioner had the Due Process right to know and should have been told by the presiding WDNY Judge.
b.) Shortly after Chief Judge Katzmann's adverse decision, this Pro Se Petitioner then filed an En Banc
Petition per 28 U.S.C. 28 352(c) under the Federal Rules of Judicial Conduct to the 2nd Circuit Judicial
Ethics Council. However, this Pro Se Petitioner's En banc Petition was also denied with little comment on
March 4, 2020 by a panel of five unnamed Judges that per their ethics rules were assigned to review it.
4. In addition, Judge Siragusa's lack of candor and transparency to reveal his identity as "Subject A"
parallels the actions of this Pro Se Petitioner's former NYS trial prosecutor who hid everything favorable
from this Pro Se Petitioner's defense including the criminal records of his key eyewitness (John Kemp)
who was a twice convicted child molester and also the pending criminal charge against his second trial
witness Bower. Both of these hidden and suppressed Brady violations were also found by this Pro Se
Petitioner and his Advocate after the fact.
5. One blatant Brady violation by the NYS trial prosecutor on Kemp was self-discovered by this Pro Se
Petitioner himself while he was locked up at the Monroe County Jail awaiting sentence. Another inmate
among the hundreds there said he knew Kemp from their time in Attica and reported he was a child
molester. Inexplicably, this one inmate that this Pro Se Petitioner met on a chance encounter by
happenstance while awaiting sentence, knew Kemp's criminal history, while every named defendant
who completed an Interrogatory and were asked if they knew Kemp have all denied any knowledge of

21

him or his extensive criminal record that included two separate felonies for child sexual abuse. (See
Exhibit 1, Kemp's Probation Record).
6. In addition, Officer Holmes who personally assisted Kemp in a photo ID array of the suspects was also
named as a defendant in this Pro Se Petitioner's Amended Complaint (Docket 139). Officer Holmes was
also a member of the trial prosecutor's police team like Sullivan and they both worked together at the
same Maple Police Section where Kemp committed most of his crimes. However, the WDNY Court gave
the City of Rochester a pass and accepted their explanation that Holmes only had a 20 minute
encounter driving Kemp from arrest to lockup and did not remember him and therefore he was not
liable for knowing Kemp. This decision unfairly ignored this Pro Se Petitioner's Section VI. Statement of
Arguments and Contentions against the City of Rochester Police Defendants (page 6 to 28) that
documented the smoking gun facts that Holmes had written in Kemp's criminal report (Exhibit 6) and
that he assisted Investigator Sullivan in his criminal investigation of Kemp and was also listed as a police
witness in Kemp's Grand Jury witness list (Exhibit 7).
7. The unnamed 2nd Circuit Appeal Judge or law clerk also agreed with the presiding WDNY Judge in his
Summary Judgment decision (Docket 157) and gave the City of Rochester Law Department a pass
thereby making this Pro Se Petitioner's second strongest smoking gun proof (Holmes) like (Sullivan) a
dismissible and non-police liability issue in this Pro Se Petitioner's 2nd Circuit Appeal.
8. After this Pro Se Petitioner's legal efforts ended under protest in the WDNY, he requested that his
ethical contentions and conflict of interest issues be included in his 2nd Circuit appeal. However, John
Regan, his new appeal attorney informed him that WDNY Judge Charles Siragusa conflict of interest
issue as "Subject A" was non appealable and therefore was not included by him as an issue in his 2nd
circuit appeal.
9. As a result, this Pro Se Petitioner was given no other legal choice than to raise his serious conflict of
interest ethics claim against the presiding WDNY Judge to the 2nd Circuit Judicial Ethics Council in a

22

separate Pro Se Complaint of Misconduct ethics action. In addition, this Pro SE Petitioner heavily
documented his ethics contentions in three previous Complaints of Misconduct letters to the 2nd Circuit
that were mailed on March 29, 2019 (Conflict of Interest), November 8, 2019 (Conflict of Interest with
Exhibit A) and December 29, 2019, the (Investigator Sullivan matter with Exhibit A) and was assigned
reference complaint number 02-19-90038-jm.
REASONS FOR GRANTING THE PETITION
This Pro Se Petitioner to the United States Supreme Court is personally representing himself Pro Se
and respectfully request that he be allowed as a non-lawyer and receive all due consideration as a Pro
Se litigant based on the following facts and contentions in this Section of the Petition that supports his
reasons why, the Supreme Court should grant his Writ of Certiorari to be heard on these important
Due Process ethical issues that not only affected this Pro Se Petitioner's Due Process Rights, but his
ability to fairly participate in the American System of Justice that offers in reality, especially to a Pro
Se litigant, little or no recourse for them to fairly address, ethical and Judicial Due Process issues or to
fairly seek legal recourse to correct Judicial bias that occurred specifically in this Pro Se Petitioner's
Section 1983 WDNY civil rights lawsuit.
In addition, this Pro Se Petitioner has previously raised the same ethical and Judicial issues with the
WDNY and the 2nd Circuit Federal Courts in several separate Pro Se ethical actions that questioned, if
the presiding WDNY Judge was likely to be a fair and impartial decider of this Pro Se Petitioner's
lawsuit and if his bias had the unconstitutional potential to Judicially prejudiced this Pro Se
Petitioner's Section 1983 civil rights lawsuit and his Due Process right to a receive a fair Federal Civil
Court proceeding. However, these Pro Se Petitioner concerns that he raised in his numerous legal and
ethical actions to the WDNY and the 2nd Circuit were basically ignored by not being answered.
1. The first reason why the United States Supreme Court should issue a Grant of Certiorari and let this
Petition be heard on this important Due Process ethical issue now before the Court for consideration is

23

based on the Due Process Clause of the U.S. Constitution and this Pro Se Petitioner's Due Process right
to know was violated when the presiding WDNY Judge failed to informed this Pro Se Petitioner of his
identity as "Subject A" in the Frank v. Relin scandal after this Pro Se Petitioner filed a notice with his
Court in Docket 67 (Exhibit A, C-l) that he intended to call Ms. Frank (who was his former Victim
Witness Assistant that he fired) as a future civil trial witness to testified about Brady violation abuse
she witnessed at the Monroe County District Attorney's Office. This Pro Se Petitioner's question that
has been raised to the presiding WDNY Judge and the 2nd Circuit Judicial in Complaint of Misconduct
letters and no person involved in this Pro Se Petitioner's lawsuit has answered it.
2. The second reason, if this Pro Se Petitioner had been told before the fact of the identity of "Subject
A", he would have immediately requested the presiding WDNY Judge's recusal because no reasonable or
rational Federal Pro Se litigant would be able to trust a seriously conflicted Federal Judge to be either a
fair or impartial arbitrator of the facts after the presiding WDNY Judge fired his former Victim Witness
Assistant for reporting his Brady violation as a former NYS Prosecutor to a NYS Supreme Court Judge.
Furthermore, the presiding WDNY Judge was also implicated and identified as "Subject A" with another
prosecutor as "Subject B" in his former Victim Witness Assistant civil rights lawsuit, Frank v Relin 2nd
Circuit 1993. However, Ms. Frank's lawsuit was first thrown out by the WDNY but she later prevailed in a
successful 2nd Circuit appeal and was granted a WDNY Jury trial in 1994 where the Jury awarded her a
substantial sum of money from her former supervisor, DA Relin, for the violation of her 1st Amendment
right to speak out about the prosecutorial Brady abuse that she witnessed at her former place of
employment.
3. The third reason pertains to the fact that this Pro Se Petitioner was granted a WDNY Habeas Corpus in
Valentin v. Mazzuca 2011 by then WDNY Magistrate Judge Victor Bianchini who ruled in his decision that
the NYS trial prosecutor had committed egregious prosecutorial misconduct involving Brady violations
against this Pro Se Petitioner at his 2001 NYS Trial and incredibly, the Habeas Judge, also expunged this

24

Pro Se Petitioner's convictions instead of granting him a new trial. In addition, the Monroe County
District Attorney's Office did not appeal his Habeas decision to the 2nd Circuit Court of Appeals.
4. The fourth reason addresses the fact that despite presenting compelling and documented evidence
regarding prosecutorial Brady misconduct, no disciplinary action was taken against the NYS trial
prosecutor after Mr. Richard Rolfe, also referred to as this Pro Se Petitioner's Advocate in this Petition,
also filed with his permission, a local ethics complaint in 2001 against the trial prosecutor with both the
NYS Attorney Grievance Committee and his former supervisor DA Howard Relin. The grounds for this
NYS ethics complaint action were based on NYS Judge Geraci's Judicial transcript comments in his 2001,
330 Court hearing (Exhibits 11 and 12) on the trial prosecutor's egregious prosecutorial misconduct in
suppressing the heinous criminal history from this Pro Se Petitioner's trial defense and allowing Kemp to
change his previous Court testimony that was in contradiction to the Grand Jury testimony of another
missing witness named McLaurin who was unresponsive to service and was unable to be located.
However, McLaurin's testimony on page 38 in his Grand Jury transcript made several Court admissions
under cross examination that supported this Pro Se Petitioner NYS trial defense claim that he acted
under duress and had no criminal intent to participate in a robbery that he did not know would happen.
Furthermore, NYS Judge Geraci threatened this Pro Se Petitioner with 25 years if he decided to go to
trial instead of a two year plea deal sentence to plead guilty. Although, Judge Geraci knew of should
have known of McLaurin's Grand Jury testimony, he refused this Pro Se Petitioner's NYS defense
attorney's request to have the first eyewitness Grand Jury testimony McLaurin entered into his NYS trial
as evidence and he also refused this Pro Se Petitioner's NYS defense attorney's request for Judge Geraci
to read duress instructions for the Jury to consider.
a.) Unfortunately for equal justice, Mr. Drake at the NYS Grievance Committee (Exhibit 17) refused with
no investigation or even a valid reason why to take any disciplinary action against the trial prosecutor

25

while District Attorney Howard Relin sent Mr. Rolfe a letter (Exhibit 15) confirming in writing their
previous phone conversation on this matter.
b.) In Relin's response letter back to my advocate, he defended the integrity of his trial prosecutor and
stated to Mr. Rolfe in writing (Exhibit 15) that the trial participation of John Kemp was not important in
this Pro Se Petitioner's NYS prosecution. However, DA Relin's response was disingenuous because
without the involvement of their key eyewitness, Kemp, there would have been no trial, no conviction
or six year sentence for this Pro Se Petitioner and his case would have been also dismissed.
5. The fifth reason also concerns the official MCDA's Office letter this Pro Se petitioner received back
from DA Howard Relin (Exhibit 15) where he vouched for the credibility of the second NYS trial and
material witness Bower while at the same time, Relin knew or should have known of facts of this Pro Se
Petitioner's NYS trial from Mr. Rolfe's complaint that his office just recently prosecuted Bower for petit
larceny and had arrested and arraigned her just three days before this Pro Se Petitioner's sentence while
his 330 motion was still being decided by NYS Judge Geraci for a new trial.
a.) However, DA Relin never told this Pro Se Petitioner or his Advocate about Bower's pending criminal
charge until it was discovered two and a half years later by happenstance after the fact and three
months after this Pro Se Petitioner's lost his NYS Appeal in 2003 for a new trial. In addition, the second
and third Brady violations on Bower were also unknown before the fact by this Pro Se Petitioner
because of the suppression by the trial prosecutor of her pending criminal charge from his NYS trial
defense attorney. This additional Brady violation on Bower was therefore unknown at the time of this
Pro Se Petitioner's NYS trial, 330 motion, NYS Stay and NYS Appeal and was unable to be used in these
NYS Court proceedings for a new trial.
6. The sixth reason concerns this Pro Se Petitioner's contentions in his Amended Complaint (Docket 139)
that he raised on defendant DA Howard Relin's Brady like violations and obstruction of justice tactics
that he used against this Pro se Petitioner and his Advocate in an attempt to cover up his trial

26

prosecutor's Brady malfeasance on Bower. However, this Pro Se Petitioner ethics contentions on Relin
were never answered by the presiding WDNY Judge in his Summary Judgment Decision (Docket 157)
even though it was heavily documented in this Pro Se Amended Complaint in Section XXIII, page 83
through 88.
a.) In addition, Howard Relin's Brady like violation was also used by this Pro Se Petitioner in his Amended
Complaint (Docket 139) to support his Monel contention against Relin that he failed to train his
employees on their Brady obligations. This contention was also supported by the fact that DA Howard
Relin did the same thing as his trial prosecutor and suppress exculpatory Brady information on Bower
that was crucial to the outcome of this Pro Se Petitioner's NYS 330 motion hearing, NYS Stay and Appeal
efforts to win a new NYS trial.
b.) Furthermore, Relin's and his trial prosecutor's Brady suppression information on Bower's pending
criminal charge, had it been known, would have severely damaged her credibility as a truthful person at
this Pro Se Petitioner's NYS trial. Furthermore, my NYS defense attorney specifically demanded in his
Discovery motion to the trial prosecutor that he turn over any pending criminal charge on any trial
witness that he intended to call to testify as a trial witness. In addition, a pending criminal charge in the
New York State Justice System is a violation of NYS discovery rule 240.45 (c) which states: The existence
of any pending criminal charge against a witness the people intend to call at trial, if the pending criminal
action is known by the prosecutor to exist. In addition, under the NYS People v Sorge ruling, a trial
witness can be impeached on any bad act that affects their ability to testify as a truthful person.
7. The seventh reason concerns the ethics complaint that were raised to Mr. Drake at the NYS Attorney
Grievance Committee who flatly refused without any investigation to look at the merits of this Pro Se
Petitioner's Due Process claims on the trial prosecutor's misconduct that included serious allegations of
perjury, subornation of perjury and obstruction of Justice tactics as well as numerous other Brady
violations and were also supported by Judge Geraci's 330 motion hearing Court transcript and the

27

critical comments he made to the trial prosecutor about his inconsistent trial theory on who was the 1st
suspect and why the trial prosecutor was not aware of Kemp's extensive criminal history.
8. The eight reason was the fact that DA Howard Relin failed in his official capacity to do the right thing
when he took no disciplinary action against his trial prosecutor, then committed a Brady like violation
himself against this Pro Se Petitioner and his Advocate when he suppressed and covered up his Office's
prosecution of the material and fugitive Bower in an attempt to deflect away his trial prosecutor's Brady
malfeasance involvement in two more additional Brady violations on Bower that were later raised in this
Pro Se Petitioner's Question of Law Motion (Docket 92).
9. The ninth reason concerns this Pro Se Petitioner's separate 2nd Circuit Complaint of Misconduct
ethical action that was decided by 2nd Circuit Chief Judge Katzmann whose decision to deny this Pro Se
Petitioner's Complaint of Misconduct was in error on the grounds that Chief Judge Katzmann did not
answer this Pro se Petitioner's ethics contentions in his decision and failed to directly address the two
ethical contentions that this Pro Se Petitioner raised in his Complaint of Misconduct letters on Ethics
Contention One and Two and are also listed in this Pro Se Petitioner's Statement of the Case to the
Supreme Court as his main WDNY and 2nd Circuit Due Process issues.
10. The tenth reason and with all due respect to 2nd Circuit Chief Judge Katzmann, it is respectfully
contended that his decision or lack thereof basically gave the presiding WDNY Judge a pass on this
serious Judicial ethics matter when it was raised to him in this Pro Se Petitioner's three separate
Complaint of Misconduct letters including a final eight page En banc Petition to the 2nd Circuit Judicial
Council. In addition, the 2nd Circuit Judicial Council, like Chief Judge Katzmann also refused to answer
without any discussion this Pro se Petitioner's En banc Petition which was finally denied on March 4,
2020 and thereby ended this Pro Se Petitioner's and his Advocate's efforts to seek any Pro Se Judicial
recourse in the 2nd Circuit on this very serious Judicial ethics matter.

28

a.) Furthermore, this ethics situation with the WDNY and the 2nd Circuit Judicial Council also relates back
to this Pro Se Petitioner's ethics complaint to the NYS Attorney Grievance Committee and to DA Howard
Relin who both failed in 2000 and 2001 to take any disciplinary action against his NYS trial prosecutor
and gave him a pass and this lack of action to correct abuses in the justice system indicates that that
legal justice system is unable to clean up their own judicial and prosecutorial ethical problems and issues
and prefers to ignored the problem as this Pro Se Petitioner also discovered when he tried to seek equal
justice about this Due Process abuse.
11. The eleventh reason concerns a Pro Se letter to Chief Judge Katzmann after this Pro Se Petitioner's
Complaint of Misconduct efforts ended in the 2nd Circuit. In his final letter to 2nd Circuit Chief Judge
Katzmann, this Pro Se Petitioner and his Advocate protested his decision and questioned him on his one
sided decision that had no rational relation to this Pro Se Petitioner's original Complaint Of Misconduct
ethics action on his two main contentions when Chief Judge Katzmann failed to answer this Pro Se
Petitioner's two main ethics contention, on why this Pro Se Petitioner's Due Process claim lacked merit
on his ethics contentions. However, this Pro Se Petitioner's letter to Chief Judge Katzmann was stamped
as received but was recently returned unanswered to this Pro Se Petitioner and further supports this Pro
Se Petitioner's Questions One and Two contention in his Petition to the United States Supreme Court
that there is little or no recourse in the American System of Justice to fairly address an ethics complaint
against a Judge, prosecutor or any other well connected individual who are also employed in the State
or Federal Court Systems and when the legal system fails to correct their serious ethic problems and
issues, it results in a system of unequal justice for any Pro Se litigant who faces this same prejudicial and
biased dilemma in their efforts to seek justice.
12. The twelfth reason presents another perspective on why the Supreme Court should grant this Pro Se
Petitioner's Petition to be heard and concerns his Due Process contention that if the presiding WDNY
Judge was indeed a fair and impartial Judge of this Pro Se Petitioner's civil rights lawsuit, he should have

29

done the right ethical thing and informed this Pro Se Petitioner before the fact. However, the presiding
WDNY Judge's blatant omission of this exculpatory and material fact that he was "Subject A" violated
this Pro Se Petitioner's Constitutional Due process right to know and Judicially biased the fairness of this
Pro Se Petitioner to receive a fair Federal Civil Court proceeding on his Section 1983 civil rights lawsuit.
13. The thirteenth reason why the U.S. Supreme Court should grant a Writ of Certiorari to this Pro Se
Petitioner pertains to his Amended Complaint (Docket 139) that included 28 Exhibits, with 9 new
Exhibits from discovery, that supported his documented police liability claims. In addition, this Pro Se
Petitioner's discovery process took over five years due to the City of Rochester and Monroe County
municipal lawyer's intransigence and obstruction of justice tactics that were illegally used against this
Pro Se Petitioner in their blatant and unethical attempt to deny this Pro Se Petitioner of their criminal
records on John Kemp that they knew was very damaging to their liability defense. In addition, none of
the defendants' including the police claim they were aware of the long and heinous criminal history of
their key NYS trial eyewitness, John Kemp, in spite of the fact that it was their jobs to know what was
happening in their own police sections or they just did not care due to their lack of Brady training which
the City of Rochester has admitted in writing that they provided no Brady training to their Rochester,
New York police officers in 2000-2001 at the time of this Pro Se Petitioner's NYS trial proceeding.
14. The fourteenth reason concerns the obstruction of Justice tactics that were illegally used against this
Pro Se Petitioner and his Advocate by the City of Rochester Law Department who mostly litigated in bad
faith by hiding Kemp's criminal records under a fake guise that this Pro Se Petitioner was telepathically
required to know the criminal record numbers or the CR numbers of Kemp or they were unable to give
him any new discovery which they successfully did and got away with, despite this Pro Se Petitioner's
many motions and letters of protest to the WDNY Court complaining about it. B-ll. The city municipal
lawyer prejudicially prevented this Pro Se Petitioner from obtaining Kemp's criminal records many years
earlier, if he had been honest instead of falsely claiming that yes we have Kemp's criminal records but

30

you cannot have them unless you can tell us the combination numbers to our John Kemp safe. This
serious obstruction of justice issue was raised in numerous letters and motions to the WDNY Federal
Court and later in this Pro Se Petitioner's 2nd Circuit Complaint of Misconduct in 2019 and 2020 on the
Due Process claim that it unfairly placed this Pro Se Petitioner in a catch 22 situation that he couldn't
win and just added more prejudicial damage to the fairness of his civil rights lawsuit. B-ll.
16. The sixteenth reason concerns this Pro Se Petitioner most important police liability claim that was
raised with the presiding WDNY Judge and was also included in his 2nd Circuit appeal. However, the
unnamed 2nd Circuit person who decided this Pro se Petitioner's appeal stated that Sullivan was not in
his Amended Complaint (B-5) and therefore ignored this important police liability issue. In addition,
many of this Pro Se Petitioner's most important Due Process contentions that he raised in his 112 page
Amended Complaint (Docket 139 B-5)) were also supported by twenty-eight documented Exhibits.
a.) Furthermore, the City of Rochester Law Department has never denied this Pro Se Petitioner's
smoking gun claim against RPD Investigator Sullivan's police involvement with Kemp who he arrested (in
conjunction with his partner and RPD lawsuit defendant Officer Holmes) on a sodomy charge against a
14 year old female in 1992 and Investigator Sullivan's scheduled court appearance with Kemp and the
NYS trial prosecutor for a Wade and Huntley hearing before NYS Justice Kenneth Fisher on August 24,
2000. However, due to a conflict the first defendant could not attend the Wade hearing and it had to be
cancelled. Therefore, with the other defendant's Wade hearing having to be rescheduled, Public
Defender Mary Davison (1st defendant defense attorney) requested that a suppression hearing on
Kemp's credibility be held instead.
b.) On September 20, 2000 (Exhibit 10), NYS Justice Fisher ruled in his decision that Kemp was not
credible, should not be allowed to testify at trial and dismissed the charges against the first suspect.
However, this Pro Se Petitioner's case and prosecution should have also been thrown out as well and
never allowed to go to trial.

31

17. The seventeenth reason concerns the malicious prosecution of the trial prosecutor after the other
related case was dismissed under the Justice Fisher suppression decision. Undeterred, the trial
prosecutor continued on his prosecution with a more compliant NYS Judge that allowed Kemp to testify
even though he knew or should have known about the Justice Fisher ruling on Kemp's lack of credibility.
This unfair admission by the NYS trial Judge to allowed Kemp in as a credible witness and to also change
his testimony subsequently led to this Pro Se Petitioner's egregiously unfair NYS trial that resulted in his
unfair six year sentence serving hard time in some of the most violent prisons in New York State. In
addition, this Pro Se Petitioner found it was almost impossible to find any gainful employment until his
criminal records were expunged in 2011 with his Habeas grant.
18. The eighteenth reason pertains to this Pro Se Petitioner's smoking gun police liability claim that was
unknown to him until 2015 until he discovered it from a complete copy of Kemp's suppression hearing
transcript that was released to him on a discovery request from the Monroe County District Attorney's
Office. Inexplicably, the MCDA's Office discovery copy of Kemp's suppression hearing contained the first
five pages that were missing from the copy that the trial prosecutor gave to his NYS Court assigned
defense attorney in 2001.
a.) In addition, this Pro Se Petitioner's statement of fact on the missing transcript pages can easily be
proven upon a review of the scanned copy of Kemp's Suppression Transcript that this Pro Se Petitioner
supplied to the presiding WDNY Judge, Magistrate Judge Payson and both the City and County municipal
lawyers in his 2013 duplicated CD discovery disk. Kemp's suppression hearing Court transcript on this
Pro Se Petitioner's CD are also missing these first five pages because his personal CD copy of the file that
it was copied from were also inexplicably missing these first five pages that mentioned Sullivan.
b.) Upon discovering this new Brady/Kyles material on Investigator Sullivan's Court involvement with
Kemp in January 2016, this Pro Se Petitioner then wrote a letter to Magistrate Judge Payson on January
26, 2016 informing her of this new police liability evidence and that he would like to request permission

32

from her Court to add him as a new defendant to his lawsuit (Docket 137). Magistrate Judge responded
back with Court instructions on how to proceed and informed him he must first file a Motion for
Permission to Amend Complaint with detailed reasons why this Pro Se Petitioner wants to add him.
c.) On February 29, 2016 this Pro Se Petitioner then filed his Motion for Permission to Amend (Docket
138) to add Investigator Sullivan as a defendant. On the same day, he also filed his new Amended
Complaint (Docket 139) listing Investigator Sullivan as a new defendant. In addition to Sullivan, nine old
Exhibits were replaced with nine more pertinent ones from discovery to further support this Pro Se
Petitioner's Due Process claims that he raised in his original Complaint (Docket 1) which was written
without the benefit of discovery on what was known by this Pro Se Petitioner at the time in early 2011.
19. The nineteenth reason why the United States Court should grant this Pro Se Petitioner's Writ of
Certiorari to be heard concerns an important and relevant Due Process obstruction of justice issue that
this Pro Se Petitioner raised with the WDNY in his Pro Se Complaint of Misconduct letters to the 2nd
Circuit Judicial Council questioning why these transcript pages from Kemp's suppression hearing were
missing in the first place. This important question was also raised to the WDNY and the 2nd Circuit, if
this was a deliberate obstruction of justice act on the part of the NYS trial prosecutor to suppressed
exculpatory and Brady material that if had been revealed to this Pro Se Petitioner's trial defense
attorney, it could have proved this Pro Se Petitioner's claim that the trial prosecutor should have been
aware of Kemp's long criminal history of sex abuse from his police team members, Investigator Sullivan
and defendant Officer Holmes unless they kept this Brady information to themselves.
a.) However, the NYS trial prosecutor denied any contemporary knowledge of Kemp's criminal history
(Exhibit 1) to then Monroe County Judge Geraci at this Pro Se Petitioner's 330 motion hearing.
Inexplicably, despite NYS Judge Geraci strong condemnation of the trial prosecutor's illegal tactics in his
330 hearing, he gave the trial prosecutor a pass when he ruled that no Brady violation happened

33

because the trial prosecutor did not know about Kemp and as a result denied this Pro Se Petitioner's 330
motion request for a new trial.
20. The twentieth reason concerns then Monroe County Court Judge Frank Geraci inexplicably allowing
Kemp, after knowing that he was not credible from the Justice Fisher suppression decision, to testified
as a credible eyewitness at this Pro Se Petitioner's 2001 NYS trial where he was also permitted to change
his previous Justice Fisher's testimony in spite of strong objections from this Pro Se Petitioner's NYS trial
defense attorney that was in direct contradiction to the other missing eyewitness's Grand Jury
testimony.
21. The twenty first reason concerns this Pro Se Petitioner's former appeal attorney, John Regan, who
also brought up this issue as Inconsistent Prosecutor's Theory that he felt was important and included it
as one of his 2nd circuit appeal points because then Monroe County Judge Geraci's strong criticism of the
NYS trial prosecutor in this Pro Se Petitioner's 330 motion and hearing where he stated:
a.) Judge Geraci to trial prosecutor: "This is not a minor disagreement. This goes to the very heart of this
case. This is the significant factor on who walked in the store and possessed the gun, isn't that a
significant difference between what you had presented to a grand jury and what you had a trial jury
here in this courtroom". (Exhibit 11, page 7) (page 79 to 80 for contention) in Amended Complaint.
b.) In addition, this Pro Se Petitioner's 2nd Circuit appeal lawyer, John Regan, also made the same point
in his WDNY FRCP 59 e motion (Docket 162) or Motion to Alter Judgment on his point that the NYS Trial
Prosecutor's theory was different than the one he used against the other alleged defendant in another
Courtroom but his point was rejected as an issue by the presiding WDNY Judge on the unsupported
grounds that it was never brought up before and the 2nd Circuit appeal law clerk agreed. However, if
they had read the Amended Complaint (Docket 139) they would have seen in Section XI. Former ADA
Majchrzak's History of Participation and Long Involvement in Prosecution of Plaintiff's Case on page
57, paragraphs 13 and 14 documenting the trial prosecutor's request to Judge Geraci just before trial

34

that he intended to call Kemp as his key eyewitness. In addition, this Due process issue was also one of
his major documented facts in his Amended Complaint (Docket 139) and was an integral part of the
weight of evidence that showed the prejudicial damage it did in the minds of the jury when in fact this
Pro Se Petitioner's trial defense was the complete opposite to what he was now being accused of.
c.) Furthermore, in the words of the trial prosecutor to then NYS Judge Geraci just before the start of
this Pro Se Petitioner's 2001 NYS trial "as you know Judge, Valentin's police report basically said that he
was the unwilling dupe of this other guy, and his intent was innocent". Page 61, point 21, Amended
Complaint (Docket 139). Furthermore, this Pro Se Petitioner's trial defense also correlated to his police
statement on what happened and showed there was no direct, smoking gun or even any physical
evidence that was introduced by the trial prosecutor at this pro Se Petitioner's 2001 NYS trial.
d.) In fact, the NYS trial prosecutor's entire case was based on the word of an discredited brain damaged
child molester eyewitness whose was on brain altering medication to treat his severe brain injury he
suffered due to a fall off a roof and required nine months in a rehabilitation hospital to recover and
admitted on the stand that he suffered frequent blackouts and seizures while under stress. The other
witness was a material witness and fugitive from the law with a pending criminal charge that was
unresponsive to service.
e.) In addition, this Pro Se Petitioner also contended in his Amended Complaint (B-5) that the trial
prosecutor committed two additional Brady violations with the participation of his second trial witness
(Sarah Bower) who also committed perjury at his NYS 2001 trial. These additional Brady violation
contentions were thoroughly documented in his Amended Complaint (Docket 139) in Sections XXIV
Bower's Testimony at Plaintiffs Trial, January 10, 2001, (Page 88 to 91) and also in the History and
Suppression of Bower's Pending Criminal Charge (Page 92 to 97) and Section XXVI (Second Brady
Violation-Suppression of Bower's Pending Criminal Charge and Prejudicial Harm to Plaintiffs Due
Process Civil Rights (Page 97 through 99). These sections in the Amended Complaint were also

35

supported by this Pro Se Petitioner's Question of Law motion (Docket 92) and (Exhibit 2) MCDA's Office
Investigator Casper Caceci's log reporting his five days search trying to tracked down Bower's
whereabouts to serve her a material witness warrant because she unresponsive to service.
f.) In particular, a couple of log entries (Exhibit 2) showed that MCDA's Investigator Caceci enlisted the
assistance of two entire RPD Police Sections (Clinton and Highland) to find and serve Bower a Material
Witness Warrant. However, at the same time the searching Highland Police and Clinton Police Sections
ignored Bower's fugitive from the law status, Bower's pending criminal charge and Bower's arrest
warrant from the same Highland Police Section that wanted to arrest Bower on her in store theft of
money from the cash register of her former employer, Mr. Cordello, who had previously fired her two
weeks before for dishonesty.
g.) Furthermore, Mr. Cordello also informed this Pro Se Petitioner's Advocate, Mr. Rolfe, who
documented his 2003 phone call in a 440 Affidavit (Exhibit 27, A-5) that when he had fired Bower two
weeks before her store theft, Bower went into a fit of rage and started throwing store objects around
which resulted in a call to the Highland Police Section to have her removed from his Pizza Store. Please
see, Rolfe's 440 Motion Affidavit (Exhibit 27, A-5) that documents his call with Mr. Cordello and former
RPD Officer Hoke who wrote the RPD Highland Police Section accusatory instrument on her theft.
22. The twenty second reason pertains to (Exhibit 23) and Bower's RPD accusatory instrument that
documents Bower's propensity for being an inherently dishonest person and reports that after she was
fired and six days before this Pro Se Petitioner's NYS 2001 trial, that she entered her former place of
employment, then opened the store's cash register without permission and removed all the cash from
it. A store employee who had his back to her making pizzas then caught Bower in the actual act and filed
a criminal complaint with former Highland Section RPD Officer Hoke. In his phone conversation, Officer
Hoke recalled knowing Bower before and that he went out later to arrest on the pending criminal charge
but was unable to locate Bower in his police section area and told Mr. Rolfe he believed she knew and

36

was trying to avoid arrest. Please see this Pro Se Petitioner's Amended Complaint (Docket 139, Exhibit
27, A-5) with the attached Affidavit of his Advocate Mr. Rolfe for more information.
23. The twenty third reason pertains to the fact that the NYS trial prosecutor also hid Bower's pending
criminal charge from this Pro Petitioner NYS trial defense attorney that then allowed Bower to testified
as a credible witness with impunity and without the fear she might be impeached on her bad act. In
addition, it was later revealed through discovery from the entries in MCDA's Office Investigator Caceci's
log (Exhibit 2) that an additional two Brady violations were also committed against this Pro Se Petitioner
by the NYS trial prosecutor at his 2001 NYS trial.
a.) Caceci's Log (Exhibit 2) documents the involvement of her boyfriend and mother with the NYS trial
prosecutor and MCDA's Office employees, Investigator Caceci and Victim Witness Assistant Wendy Sisca
and clearly shows that a deal was made with Bower in exchange for her perjured trial testimony. In
addition, Exhibit 26 in this Pro Se Petitioner's Amended Complaint (Docket 139) (Regenstrief s claim
voucher and log) also reports the involvement of her boyfriend and mother in Bower's status as a
material witness while they also knew at this time of her pending criminal charge. However, like the
criminal records of Kemp, this exculpatory and material information that could have affected the
outcome of this Pro Se Petitioner's NYS trial was also suppressed from his defense by the trial
prosecutor and his RPD police team.
24. The twenty fourth reason concerns this Pro Se Petitioner's second and third Brady violation claim
against the NYS trial prosecutor regarding Bower's pending criminal charge was raised as an open issue
because it was disputed in this Pro Se Petitioner's WDNY Question of Law Motion (Docket 92) under the
NYS People v. Sorge ruling that allows a pending criminal charge or bad act against a witness to be cross
examined by the defense. This issue was also addressed by the City and County municipal lawyers in
their separate counter motions (Dockets 98 and 99, D2 and D3) who confirmed) that Bower could have
been questioned and impeached on her bad act. This admission in their opposing motions confirms this

37

Pro Se Petitioner's contention that if this pending criminal charge were known, it would have severely
impeached Bower's credibility of being an honest trial witness and her propensity to tell the truth.
25. The twenty fifth and final reason why the United States Supreme Court should grant this Pro Se
Petitioner a Writ of Certiorari is based on the facts and merits in his Petition now before the Supreme
Court and in the interest of the Rule of Law and equal justice, this Pro Se Petitioner respectfully requests
that he be granted relief and that his Section 1983 lawsuit be remanded back to the lower Courts for
trial by jury in order to fairly ascertained its merits.
CONCLUSION
In conclusion, this Pro Se Petitioner has respectfully raised in his Petition to the United States Supreme
Court, serious Judicial ethical concerns requiring recusal including other egregious prosecutorial Brady
violation issues and respectfully request a Grant of Certiorari to be heard on these Constitutional Due
Process violations that are now before your Court. In addition, this Pro Se Petitioner respectfully request
that his civil rights lawsuit be sent back to the lower Courts for a trial by jury in order to determine the
real facts and merits of his lawsuit and Constitutional claim that his Due Process right to a fair NYS trial
were violated under the Due Process Clause of the Fifth and Fourteenth Amendments of the United
States Constitution.
The petition for a writ of certiorari should be granted.
Respectfully,submitted

Hector Valentin, Pro Se Petitioner
Date: June 12, 2020

38

